HHS/OIG-Audit--"Audit of the Medicare Partial Hospitalization Program at Mental Health Corporation of Denver, (A-07-98-01263)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicare Partial Hospitalization Program at Mental Health
Corporation of Denver," (A-07-98-01263)
May 5, 2000
Complete Text of Report is available in PDF format
(1.28 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that review of medical records performed by the
intermediary's medical review staff and the Health Care Financing Administration's
medical surveyors found that all of the 1,030 units of service included in 100
sampled claims made by the Mental Health Corporation of Denver (MHCD) did not
meet Medicare requirements for partial hospitalization services (PHP). Based
on the totality of the evidence, we have questioned the entire $4,447,607 charged
for PHP services by MHCD during Fiscal Year 1996. During the course of our audit,
MHCD discontinued billing Medicare for PHP services. In addition to a financial
adjustment, we are recommending that the intermediary (Blue Cross Blue Shield
of Texas) review PHP services provided by MHCD for other cost report periods.
We are also recommending that MHCD take the necessary steps to ensure that any
future billings for PHP services meet the Medicare requirements for such services.